CAPITAL CASE
No. 20-507
__________________________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________________
TONY MAYS, WARDEN,
Petitioner-Applicant
vs.
ANTHONY DARRELL DUGARD HINES,
Respondent
__________________________________________________________________________
PETITION FOR REHEARING
__________________________________________________________________________

James O. Martin, III
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
(615) 736-5047

Respondent, Anthony Darrell Dugard Hines, respectfully requests that this
Court order rehearing in this case pursuant to Rule 44 of the Court. For the reasons
stated below, this Court should either (1) rescind the granting of the writ of
certiorari and the summary reversal opinion and allow the fact-bound Court of
Appeals’ judgment to remain standing; or (2) rescind the summary reversal opinion
and allow full briefing and argument.
In support of this petition for rehearing, Respondent submits that: (1) the
Court’s summary reversal of the Court of Appeals’ grant of habeas relief failed to
take account of critical facts relevant to a finding of prejudice in an ineffective
assistance of counsel claim, in a case where the habeas grant was particularly factbound; (2) the grant of habeas relief is necessitated by the sort of extreme
malfunction in the state criminal justice system envisioned by the Court in

Harrington v. Richter, 562 U.S. 86 (2011), as Hines’ trial counsel, the prosecutor,
the county sheriff, and Ken Jones—a key witness and alternate suspect—colluded
to ensure that his counsel did not investigate Jones and instead presented Jones’s
perjured testimony at Mr. Hines’ trial; and (3) full briefing and argument would
allow the Court to consider other claims on which Mr. Hines is entitled to relief—
claims that were incorrectly rejected by the Court of Appeals.
I.

The Court of Appeals’ Ruling Was Fact Bound and Did Not Warrant
Granting a Writ of Certiorari, Much Less a Summary Reversal.
The Court of Appeals’ holding that trial counsel were ineffective for failing to

investigate and present evidence regarding Ken Jones and that the state court’s
judgment to the contrary was an unreasonable application of federal law was a

highly fact-bound holding and does not meet this Court’s requirements for granting
a writ of certiorari. The state court ruled that Mr. Hines could not satisfy the
prejudice requirement of Strickland v. Washington, 466 U.S. 668 (1984). Hines v.

State, No. M2004-01610-CCA-RMPD, 2004 WL 1567120, at *27 (Tenn. Crim. App.
July 14, 2004). The state court side-stepped the deficient-performance prong of

Strickland. As the Sixth Circuit concluded: “Trial counsel’s performance was clearly
deficient because they abandoned any effort to interview Jones based on nothing
more than an assurance by the sheriff that Jones was not involved in Jenkins’s
murder.” App. 83.
As to the prejudice prong, the Sixth Circuit noted that this Court held that “a
state court’s ‘prejudice determination’ is ‘unreasonable insofar as it fail[s] to
evaluate the totality of the available evidence.’” App. 91 (quoting Williams v. Taylor,
529 U.S. 362, 397–98 (2000)) (alteration in original). Yet this Court’s recitation of
the facts fails to evaluate the totality of the available evidence, as did the state
court’s decision. In contrast, the Court of Appeals considered the totality of the
available evidence, and its judgment is extremely fact-bound.
With respect to the guilt-innocence stage, the Sixth Circuit detailed the
information offered by Jones in his deposition that “would have significantly aided
Hines’s defense at the trial.” App. 84–85. Mr. Hines’ defense counsel conceded that
“the failure to interview Jones presented difficulties with the defense offered at
trial, because defense counsel were unable to resolve factual discrepancies between
Jones’s testimony and that of other witnesses.” App. 82–83. For example, the

timeline Jones testified to did not match that given by other witnesses. App. 77–83.
Jones testified that he arrived at the motel at 12:30 p.m., drove to a convenience
store and back, found the body around 1:20 p.m., and immediately had someone call
for an ambulance. App. 77–78. The ambulance driver, in contrast, testified that the
call came at 2:36 p.m. App. 76–77. The ambulance driver testified that the caller
stated that the victim had been stabbed, but Jones, who supplied the information
relayed to the ambulance driver, testified he had been unable to determine whether
the victim was male or female, and the body was wrapped in a bedspread when the
ambulance arrived. App. 82–83. Jones changed his story during his deposition
during post-conviction proceedings, testifying that he arrived at the motel around
10:30 and found the body around 11:00, App. 86.
As the Sixth Circuit concluded, this information “could have provided ample
fodder for defense counsel to focus on Jones as a reasonable alternative suspect.” Id.
This would have been “a viable path for the defense, as the evidence of Hines’s guilt
was not overwhelming.” App. 87 (citation omitted). Furthermore, even aside from
attempting to affirmatively argue that Jones was an alternative suspect, “pre-trial
investigation into Jones could have allowed defense counsel to effectively challenge
the prosecution’s case by, at the very least, seriously undermining Jones’s testimony
and calling the prosecution’s timeline of events into question.” App. 89. There is a
“‘reasonable probability’ that one juror would have voted differently but-for
counsel’s deficient performance.” App. 88.
The failure to investigate Jones pre-trial was particularly devastating at the

sentencing phase. The prosecution zealously argued in closing that the $20 bill
found under the victim’s wristband showed the kind of depravity of mind necessary
to support a sentence of death. At the guilt-stage, the prosecutor argued about the
depravity of Mr. Hines’ putting the $20 bill in her wristband in both his initial
closing argument and again in rebuttal, saying, “it takes a sick and morbid mind to
do that.” Trial Tr., R. 173-6, PageID# 4378, 4411. At re-sentencing, the prosecutor
called the $20 bill “the most important and the most devastating” aggravating
factor, and said it showed that Mr. Hines was “a deranged individual” with “a
depraved, manic mind.” Re-sentencing Tr., R.173-11, Page ID #5026-29.
As post-conviction counsel learned when they deposed Jones, he “usually paid
$20” to the victim, every Sunday morning to have a tryst with his young mistress,
rather than paying the full rate. App. 85. We now know that Jones arrived at the
motel at 10:30 a.m. and asked someone to call an ambulance at 2:36 p.m. Exactly
what happened in those four hours is a mystery, but in any event, a simple
conversation with Jones likely would have revealed that the person who handed the
victim a $20 bill every Sunday morning was Ken Jones, not Mr. Hines. There is a
reasonable probability that at least one juror would not have accepted the
prosecution’s insistent depiction of Mr. Hines as depraved on the basis that he put a
$20 bill in the victim’s wristband. Reasonably competent defense counsel would
never have agreed with the request by the sheriff and prosecutor not to investigate
Jones. Instead, effective counsel would have been armed with the necessary
evidence to rebut this false and most inflammatory of the prosecution’s aggravating

factors, likely saving Mr. Hines from a death sentence.
II.

The prosecution and defense counsel’s collusion to ignore a witness
represents an extreme malfunction in the state criminal justice system.
In its summary reversal, the Court did not take account of the critical truth

that Mr. Hines’ trial counsel colluded with the prosecutor and the county sheriff not
to investigate Ken Jones as a potential suspect and to present his perjured
testimony. The Court mischaracterized defense counsel’s failure in this regard as
follows:
The post-conviction proceedings also revealed that Hines’ attorney was
generally aware of Jones’ affair from the outset, yet had decided to
spare him the embarrassment of aggressively pursuing the matter.

Hines, 141 S. Ct. at 1148 (citation omitted).
This assessment of defense counsel’s inaction as related to Jones is far
oversimplified. It also implies that defense counsel did, in fact, pursue the matter –
just not “aggressively.” In fact, the truth of the matter is that counsel did not pursue
it at all. App. 81-82. As Mr. Hines showed in the state post-conviction proceedings,
his defense counsel didn’t simply decide on his own to spare Jones. The sheriff told
his counsel that Jones “hadn’t got a dog in the hunt, don’t embarrass the man” “by
having it brought out that he had been over there to meet with a lady friend. App.
81–82. Counsel complied with the sheriff’s request and went a step farther, deciding
not to even speak to Jones, which he later acknowledged “was ridiculous.” App. 82.
Instead, in an all-too-late recognition of the significance of his failure, trial counsel
offered a disjointed rant in his closing argument in which he carelessly tossed
around vaguely veiled assertions of suspicion about Jones to the jury. App. 79-80.

On this point, the Court of Appeals could not have been more on point where it
correctly noted that, because counsel had conducted no investigation and was
therefore unable to establish any facts supporting his veiled accusations, his
remarks were haphazard and only served to compromise his credibility. App. 88-89.
Mr. Hines’ sentence of death was the proximate result of an extreme
malfunction in the state criminal justice system. In concluding that counsel’s
performance was deficient where they failed to conduct any investigation into Jones
based on an assurance by the sheriff, the Court of Appeals held: “In Strickland, the
Court explained that a reviewing ‘court should keep in mind that counsel’s function,
as elaborated in prevailing professional norms, is to make the adversarial testing
process work in the particular case.’” App. 83 (quoting Strickland, 466 U.S. at 690).
It is difficult to imagine a more complete breakdown in the adversarial
system than occurred here. There is no question that the prosecution was able to
fabricate an aggravating circumstance that led to the death sentence in this case
only because of defense counsel’s adherence to the sheriff and prosecutor’s requests
to forego even talking to the witness who discovered the victim’s body and whose
timeline and story failed to line up with other known evidence. Is this type of
collusion between the prosecution and defense – resulting in a capital sentence –
the type of extreme malfunction in the state criminal justice system envisioned by
the Court in Harrington which requires federal habeas relief? If not, then it may
well be that no such circumstance exists. If so, then rehearing must be granted in
this case pursuant to Rule 44.

III.

Multiple, Alternative Grounds Justify the Sixth Circuit’s Grant of Habeas
Corpus Relief.
Mr. Hines raised multiple meritorious claims for habeas corpus relief, beyond

ineffective assistance of counsel regarding Mr. Jones, including (1) ineffective
assistance of trial counsel for failure to conduct forensic testing that would have
revealed that the DNA of two different men was found on Mrs. Jenkins’ underwear
(while no DNA from Mr. Hines was recovered) and that would have established that
multiple fingerprints were found at the murder scene, none of which matched Mr.
Hines, App. 12-21; (2) suppression of exculpatory evidence regarding swabs that
were taken from Mrs. Jenkins’ body to be tested for semen, App. 32-40; and (3)
ineffective assistance of trial counsel at the resentencing hearing, which the Court
of Appeals reviewed de novo, as the underlying Tennessee decision was contrary to
clearly established law. App. 40-74. Each of these three issues provides an
alternative ground for upholding the Court of Appeals’ grant of habeas relief.

Morgan Stanley Capital Grp. Inc. v. Pub. Util. Dist. No. 1 of Snohomish Cty.,
Wash., 554 U.S. 527, 552 (2008); Raygor v. Regents of Univ. of Minnesota, 534 U.S.
533, 536 (2002); see also Granite Rock Co. v. Int'l Bhd. of Teamsters, 561 U.S. 287,
306 (2010) (requiring that alternative grounds for relief be set forth in the Brief in
Opposition). The Court of Appeals’ adverse decision on these three grounds was in
error.
CONCLUSION
For the foregoing reasons, Mr. Hines respectfully requests that this Court
grant rehearing in this case and either rescind the grant of the writ of certiorari or,

alternatively, allow full briefing on the issues presented.

Respectfully submitted,
/s/ James O. Martin, III
James O. Martin, III
Assistant Federal Public Defender
*Counsel of Record
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
(615) 736-5047

CERTIFICATE OF SERVICE
I certify that a copy of this petition was served upon counsel for Respondent,
John Bledsoe, 425 Fifth Avenue North, Nashville, Tennessee 37243 this the 23rd day
of April, 2021.

/s/ James O. Martin, III
James O. Martin, III

